No. ________________
IN THE

Supreme Court of the United States
ROBERT LEE CRIDER, JR.,

Petitioner
v.

THE STATE OF TEXAS,

Respondent

On Petition For Writ of Certiorari
To The Court of Criminal Appeals of Texas

PETITION FOR WRIT OF CERTIORARI
M. PATRICK MAGUIRE

Counsel of Record

M. PATRICK MAGUIRE, P.C.
945 BARNETT STREET
KERRVILLE, TEXAS 78028
TEL: (830) 895-2590
FAX: (830) 895-2594
E-Mail: mpmlaw@ktc.com

I.

Question Presented

The United States Supreme Court has held that the
compelled extraction of blood from a person’s body is a
Fourth Amendment search. The Court has also held that the
government’s chemical analysis of blood extracted from a
person’s body is a Fourth Amendment search.
This case presents the question of whether a Fourth
Amendment violation occurs when the government extracts
a blood sample by compelled intrusion into a person’s body
and then chemically analyzes that blood sample for alcohol
based upon a warrant authorizing only the extraction of
blood, but that does not authorize the chemical analysis of
the seized blood.

i

II.
-

List of Proceedings

State v. Crider, No. B18-073, 198th Judicial
District Court, Kerr County, Texas.
entered September 12, 2018.

-

Judgment

Crider v. State, No. 04-18-00856-CR, Fourth Court
of Appeals, San Antonio, Texas. Judgment entered
September 4, 2019.

-

Crider v. State, No. PD-1070-19, Texas Court of
Criminal Appeals. Judgment entered September
16, 2020.

ii

III.

Table of Contents

I.

Question Presented

i

II.

List of Proceedings

ii

III.

Table of Contents

iii

IV.

Table of Authorities

iv

V.

Petition for Writ of Certiorari

1

VI.

Opinions Below

1

VII.

Jurisdiction

1

VIII. Constitutional Provisions Involved

2

IX.

Statement of the Case

2

X.

Reasons for Granting Writ

7

XI.

Conclusion

20

XII.

Appendix

21

iii

IV.

Table of Authorities
Cases

Andresen v. Maryland, 427 U.S. 463 (1976),
Page 9

Crider v. State, 607 S.W.3d 305 (Tex. Crim. App. 2020),
Pages 1, 6, 9, 12, 13

Skinner v. Ry. Labor Execs. Ass’n, 489 U.S. 602 (1989),
Pages 3, 5, 7, 8, 15
Statutes

28 U.S.C. §1257
Page 1
Constitutional Provisions

United States Constitution, Amendment IV
Page 2
Treatises
Andrei Nedelcu, Blood and Privacy: Towards a “TestingAs-Search” Paradigm Under the Fourth Amendment,
39 SEATTLE U. L. REV. 195 (2015)
Pages 15, 17

iv

V.

Petition for Writ of Certiorari

Robert Crider, Jr., an inmate currently incarcerated
in the McConnell Unit of the Texas Department of Criminal
Justice, Institutional Division, in Beeville, Texas, by and
through M. Patrick Maguire, respectfully petitions this
Court for a writ of certiorari to review the judgment of the
Texas Court of Criminal Appeals.
VI.

Opinions Below

The judgment and opinion of the Texas Court of
Criminal Appeals is reported as Crider v. State, 607 S.W.3d
305 (Tex. Crim. App. 2020). The opinion of the Texas Court
of Criminal Appeals is incorporated into the Appendix
herein.
VII.

Jurisdiction

Mr. Crider invokes this Court’s jurisdiction under 28
U.S.C. § 1257, having timely filed this petition for a writ of
certiorari within ninety days of the Texas Court of Criminal

1

Appeals’ judgment. Judgment was entered September 16,
2020.
VIII. Constitutional Provisions Involved
United States Constitution, Amendment IV:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or affirmation, and
particularly describing the place to be searched, and
the persons or things to be seized.
IX.

Statement of the Case

In Skinner v. Ry. Labor Execs. Ass’n, this Court held
that a compelled intrusion into the body for blood to be
analyzed for alcohol content is deemed a search within the
meaning of the Federal Constitution’s Fourth Amendment,
because this physical intrusion, penetrating beneath the
skin, infringes an expectation of privacy that society is
prepared to recognize as reasonable. This Court also held
that the ensuing chemical analysis of the blood sample to
obtain physiological data is a further invasion of the privacy

2

interests of the person whose blood is being analyzed. 489
U.S. 602, 615 (1989).
This case presents the question of whether a Fourth
Amendment violation has occurred when the government
extracts a blood sample by compelled intrusion into a
person’s body and then chemically analyzes that blood
sample for alcohol based upon a warrant authorizing only
the extraction of blood, but that does not authorize the
chemical analysis of the blood.
1. The arrest and the search warrant
On October 3, 2017, following a citizen’s 911 report
describing Crider’s erratic driving as well as the location
where he eventually parked, a Kerrville police officer found
Crider sitting alone in his vehicle where he had been
reported to be. The officer noticed that Crider exhibited a
strong odor of alcohol, glassy and bloodshot eyes, an
unsteady gait, and slow, slurred speech. When Crider was
unable to submit to field sobriety testing because of recent

3

injuries, the officer conducted a horizontal gaze nystagmus
test to look for signs of intoxication. The officer then arrested
Crider and obtained a search warrant authorizing the
extraction of Crider’s blood. The warrant did not authorize
the testing of Crider’s blood. Chemical testing of the blood
sample showed that Crider’s blood alcohol concentration was
.19. The legal limit in Texas is .08.
Crider filed a motion to suppress the results of the
blood analysis. Crider argued that the blood test results
were inadmissible because the search warrant only
authorized officers to obtain a blood sample, and did not
authorize an analysis of the blood for alcohol. The trial court
denied Crider’s motion to suppress.
2. Intermediate appeal
On appeal, Crider argued that the trial court abused
its discretion in denying Crider’s motion to suppress because
the State failed to obtain a search warrant that authorized
both the drawing and testing of a blood sample taken from

4

Crider. This argument is based upon authority derived from
this Court’s holding in Skinner v. Ry. Labor Execs. Ass’n,
which recognizes that when the drawing of a defendant’s
blood is instigated by the government, a subsequent analysis
of the blood by government agents also constitutes an
invasion of a societally recognized expectation of privacy.

Skinner v. Ry. Labor Execs. Ass’n, 489 U.S. 602, 615 (1989).
On September 4, 2019, the Fourth Court of Appeals
issued an unpublished opinion affirming the trial court’s
judgment.
3. Texas Court of Criminal Appeals
Crider filed a petition for discretionary review in the
Texas Court of Criminal Appeals. The Court of Criminal
Appeals granted Crider’s petition but ultimately affirmed
the judgments of the intermediate court of appeals and the
trial court.
The Court of Criminal Appeals recognized that the
chemical testing of blood constitutes a separate and discrete

5

invasion of privacy for Fourth Amendment purposes from
the physical extraction of blood. Crider v. State, 607 S.W.3d
305, 306 (Tex. Crim. App. 2020). The Court went on to hold
that because the State obtained the blood sample by way of
a magistrate’s determination that probable cause existed to
justify its seizure, and this determination was sufficient to
justify the chemical testing of the blood even if the warrant
itself did not expressly authorize the chemical testing on its
face.

6

X.

Reasons for Granting the Writ

A. This Court has long recognized that the government’s
analysis of blood is a discrete Fourth Amendment
search separate and distinct from the initial
extraction of the blood. The Court should take this
opportunity to clarify that the government’s chemical
analysis of blood is a violation of the Fourth
Amendment’s prohibitions against unreasonable
searches and seizures unless the face of the warrant
expressly authorizes the analysis.
The Supreme Court has “long recognized that a
‘compelled intrusion into the body for blood to be analyzed
for alcohol content’ must be deemed a Fourth Amendment
search.” Skinner v. Ry. Labor Execs. Ass’n, 489 U.S. 602
(1989) (quoting Schmerber v. California, 384 U.S.757, 76768 (1966)).

Skinner concerned the Federal Railroad Safety Act
(FRSA) of 1970, which “authorize[d] the Secretary of
Transportation to prescribe, as necessary, appropriate rules,
regulations, orders, and standards for all areas of railroad
safety.” Id. at 606. Pursuant to the statute, the Federal
Railroad Administration promulgated regulations that

7

mandated the blood and urine analysis of railroad employees
involved in certain accidents. Id. The issue presented was
“whether

these

regulations

violate[d]

the

Fourth

Amendment.” Id.
The Skinner Court noted the following:
We have long recognized that a “compelled intrusio[n]
into the body for blood to be analyzed for alcohol
content” must be deemed a Fourth Amendment
search. In light of our society’s concern for the
security of one’s person, it is obvious that this physical
intrusion, penetrating beneath the skin, infringes an
expectation of privacy that society is prepared to
recognize as reasonable.
The ensuing chemical
analysis of the sample to obtain physiological data is
a further invasion of the tested employee’s privacy
interests.” Id. at 616.
The goal of a blood search warrant is not the blood; it
is the information contained within the blood. The Skinner
Court recognized this fact and held that the collection and
subsequent analysis of blood must be deemed Fourth
Amendment searches.

8

The Blood Warrant
The search warrant signed by the judge in this case
does not authorize the testing of Crider’s blood for alcohol.

Crider v. State, 607 S.W.3d 305, 306 (Tex. Crim. App. 2020).
The Fourth Amendment is clear that each discrete search—
the drawing of blood and the subsequent testing of the
blood—requires a warrant supported by probable cause.1
The Fourth Amendment prohibits the issuance of
general warrants allowing officials to burrow through a
person’s possessions looking for any evidence of a crime.

Andresen v. Maryland, 427 U.S. 463, 480 (1976). A warrant
must particularly describe the place to be searched and the
person or things to be seized. Id.
In other words, the scope of the search is limited by
the four corners of the search warrant. The search warrant

A warrant authorizing a blood draw and an analysis of the blood must
be obtained because the blood draw and the analysis each constitute a
“search” under the Fourth Amendment. However, there is no reason why
both of these elements could not be incorporated into a single warrant
based upon a single probable cause affidavit.
1

9

signed by the magistrate in this case states that probable
cause is established “for issuance of this warrant for seizure
of blood from the person of Robert Lee Crider, Jr. and to
carry the said person to a physician, registered nurse, or
medical laboratory technician skilled in the taking of blood
from the human body and the said physician, registered
nurse, or medical laboratory technician shall take sample of
the blood (sic) from the person of the said Robert Lee Crider,
Jr. in the presence of a law enforcement officer and deliver
the said samples to the said law enforcement officer.” RR 13,

Defendant’s Exhibit 1 (emphasis added). The four corners of
the warrant do not authorize the officer to have the blood
analyzed to determine Crider’s blood alcohol concentration.

The Analysis of Crider’s Blood Constituted a
Warrantless Search
Because the blood draw and the analysis were both
instigated by the government, there are two discrete
searches at issue. The warrant in this case only focused on
the first search—the blood draw. There is no mention made
10

in either the probable cause affidavit, or in the warrant,
regarding the subsequent analysis of the blood. The analysis
was, therefore, a warrantless search.

Crider’s Motion to Suppress
In his motion to suppress, Crider argued that the
search warrant to draw Crider’s blood was deficient because
the officer who sought the search warrant only requested a
blood sample and did not request to analyze the blood to
determine the alcohol concentration within the blood. CR,
51.

The officer never requested, nor did the warrant

authorize, a subsequent analysis of the blood sample to
determine the blood alcohol concentration. CR, 51. Crider’s
motion to suppress argued that “[t]he affidavit in this matter
only describes ‘human blood’ as the evidence to be searched
for and does not describe the true evidence sought. The
officer was not seeking human blood . . . The evidence sought
was the alcohol particles within the blood. The officer never

11

described this evidence within the affidavit for search
warrant for mere evidence . . .” CR, 51.

No Exceptions to the Warrant Requirement were
Urged by the State
In the case of a warrantless search, the State has the
burden of proof to show that a search was justified under one
of the exceptions to the warrant requirement or show that
Crider voluntarily consented to such search by clear and
convincing evidence. The State did not raise any warrant
exceptions in response to Crider’s motion to suppress.

Opinion of the Texas Court of Criminal Appeals
The Texas Court of Criminal Appeals reiterated “that
the chemical testing of blood constitutes a separate and
discrete invasion of privacy for Fourth Amendment purposes
from the physical extraction of that blood.”

Crider, 607

S.W.3d at 306.
The Court of Criminal Appeals, however, reasoned
that because the initial extraction of blood is supported by a
finding of probable cause, that finding is sufficient to justify
12

the chemical testing of the blood even if the warrant itself
did not expressly authorize the chemical testing on its face.

Crider, 607 S.W.3d at 308. The core rationale of the Court
of Criminal Appeals’ opinion is encapsulated below:
“[N]o indiscriminate ‘rummaging’ through the content
of Appellant’s blood was authorized here; nor does the
record suggest that any occurred. On the basis of the
warrant issued in this case, the State was not
authorized to analyze Appellant’s blood for, say,
genetic information, or for any other biological
information not supported by the same probable cause
that justified the extraction of his blood sample in the
first place.” Id. at 308.
The Court of Criminal Appeals stated that its ruling
is not tantamount to an unconstitutional endorsement of
general search warrants. Id.
The Court’s opinion, however, is not reconcilable with
the Fourth Amendment’s mandate that any search be
justified by a valid search warrant or a valid warrant
exception.
To accept the Court of Criminal Appeals’ rationale, we
must assume that the government will not seek any

13

information from a blood sample other than what is
“implied” by the search warrant. This raises two troubling
questions. In such a case, who decides what is “implied” in
the search warrant? Also, who decides what is “reasonable”?
The answer is simple – the government decides these
questions.

This cuts to the heart of why general search

warrants are prohibited by the Fourth Amendment.
It goes without saying that our constitution is
predicated upon the idea that government should not be
allowed to police itself. Our constitution and the judiciary
are the “guardrails” framing the boundaries of permissible
conduct by the government.

This is manifested by the

Fourth Amendment’s requirement for clear, specific, search
warrants outlining what the government may seize; and in
the case of blood or biological evidence, what information the
State may retrieve from the blood or biological evidence.

14

The concerns inherent in leaving a warrant openended when it comes to testing of blood or biological evidence
are summed up in the following passages:
“‘[C]hemical analysis of urine, like that of blood, can
reveal a host of private medical facts about an [individual],
including whether he or she is epileptic, pregnant, or
diabetic’—facts that may be extraneous to any criminal
investigative aims.” Skinner v. Ry. Labor Execs. Ass’n, 489
U.S. 602, 617 (1989). “[A] person has no reason to know
much of the information that will be revealed when [a
biological sample containing DNA] is analyzed. [She] has
little to no discretion over what information is stored in her
body and likely has not . . . evaluated that information
herself.” Andrei Nedelcu, Blood and Privacy: Towards a

“Testing-As-Search”

Paradigm

Under

the

Fourth

Amendment, 39 SEATTLE U. L. REV. 195, 210 (2015).
Blood is simply a repository for a myriad of potentially
incriminating evidence and other private facts that a person

15

may not wish to disclose. An approach that fails to recognize
this by requiring an express authorization for testing on the
face of the warrant itself suffers from a fatal constitutional
infirmity.
If there is no mention of testing in the warrant, the
issue of what can be done with a blood sample is left to the
discretion of the person reading the warrant.

Such an

approach turns on its head the notion that law enforcement
should not be in the position to police itself. Once a biological
sample is in the possession of law enforcement, unless there
is an explicit directive from a magistrate limiting what law
enforcement may do with that sample, law enforcement may
do with the sample whatever law enforcement wants to do
with it.
This approach also highlights the serious concerns
over general search warrants, particularly in light of the fact
that

“[a]s

technology

advances,

more

meaningful

information will be extractable from . . . genetic material . . .

16

[T]he only practical limit on information that can be
extracted from biological samples are currently available
analysis techniques and our knowledge of what genetic
variations mean.”

Andrei Nedelcu, Blood and Privacy:

Towards a “Testing-As-Search” Paradigm Under the Fourth
Amendment, 39 SEATTLE U. L. REV. 195, 210 (2015).
The underlying constitutional principles at work are
not in dispute. The United States Supreme Court and the
Texas Court of Criminal Appeals both hold that the
government’s testing of blood constitutes a search under the
Fourth Amendment.
The Court of Criminal Appeals, however, holds that a
warrant explicitly authorizing the government’s analysis of
the blood is unnecessary so long as a warrant authorizing
the extraction of the blood was obtained.

This holding

cannot be reconciled with the principle that all searches
under the Fourth Amendment must be justified by a search
warrant issued by a neutral magistrate or by the existence

17

of a recognized exception to the warrant requirement. It is
up to this Court to vindicate this principle by holding that all
such searches must be supported by a search warrant.
The remedy for this issue is not some herculean task
that will complicate matters and hinder law enforcement. To
the contrary, the solution could not be simpler. In the same
warrant authorizing the taking of a blood sample, the
addition of one sentence authorizing law enforcement to test
the blood for alcohol or other intoxicants solves the problem.
Such a warrant vindicates this Court’s holding in Skinner
that the government’s testing of blood is a search under the
Fourth Amendment. It also places limits on what may be
done with such a sample. If it’s not stated in the warrant,
the government cannot do it.
Stated another way, this solution gives clear guidance
to the government that any information gleaned from the
government’s testing of a biological sample must be
expressly authorized in a search warrant supported by

18

probable cause. By implication, this also dictates that any
other testing or analysis of a biological sample by the
government would need to be authorized in a search
warrant.
The alternative is that a judicially-created warrant
exception is carved out, unique to blood warrants, providing
that a blood search warrant does not need to specify that the
government may test blood because testing is “implied” in
the warrant. Such a judicially-created warrant exception
would be an anomaly in Fourth Amendment jurisprudence
and amount to the tacit endorsement of general search
warrants in this context.
Under such precedent, the question of what else is
“implied” in such warrants is left to the imagination of the
government. If the government seizes blood and decides to
enter the defendant’s DNA into computer databases it may
do so assuming it has a good reason; the government may
test for specific genetic traits, or anything else for that

19

matter if the government can make some “reasonableness”
argument. In such a case, the warrant is a “floor” for what
the government may do, it is not a “ceiling” setting limits for
what the government may not do.
XI.

Conclusion

For the foregoing reasons, Mr. Crider respectfully
requests that this Court issue a writ of certiorari to review
the judgment of the Texas Court of Criminal Appeals.
DATED this 10th day of December, 2020.
Respectfully submitted,

M. PATRICK MAGUIRE

Counsel of Record

M. PATRICK MAGUIRE, P.C.
945 BARNETT STREET
KERRVILLE, TEXAS 78028
TEL: (830) 895-2590
FAX: (830) 895-2594
E-Mail: mpmlaw@ktc.com

20

XII.
-

Appendix

Texas Court of Criminal Appeals’ opinion of
September 16, 2020

21

IN THE COURT OF
CRIMINAL APPEALS
OF TEXAS
NO. PD-1070-19
ROBERT LEE CRIDER, JR., Appellant
v.
THE STATE OF TEXAS
ON APPELLANT’S PETITION FOR
DISCRETIONARY REVIEW FROM
THE FOURTH COURT OF APPEALS
KERR COUNTY
YEARY, J., delivered the opinion of the Court in
which KELLER, P.J., and KEASLER, HERVEY,
RICHARDSON, NEWELL, KEEL, and SLAUGHTER, JJ.,
joined.
NEWELL, J., filed a concurring opinion in which

HERVEY, RICHARDSON, and SLAUGHTER, JJ., joined.
WALKER, J., filed a dissenting opinion.
OPINION
A sample of Appellant’s blood was lawfully
extracted pursuant to a search warrant which alleged
probable cause to believe he had been driving while
intoxicated. The warrant, however, did not also expressly
authorize the chemical testing of the extracted blood to
determine his blood-alcohol concentration. This petition
for discretionary review calls upon us now to examine
whether introduction of evidence of the result of the
chemical testing at Appellant’s trial, in the absence of any
explicit authorization for such testing in the search
warrant (or in a separate search warrant), violated his
Fourth Amendment rights. We hold that it did not, and we
therefore affirm the judgment of the court of appeals.

I.

Background
Following a

citizen’s 9-1-1

report

describing

Appellant’s erratic driving as well as the location where he
eventually parked, a Kerrville police officer found
Appellant sitting alone in his vehicle exactly where he had
been reported to be. The officer noticed that Appellant
exhibited a strong odor of alcohol, glassy and bloodshot
eyes, an unsteady gait, and slow, slurry speech. When
Appellant would not submit to field sobriety testing
because of claims of recent injuries, the officer conducted
a horizontal gaze nystagmus test to look for signs of
intoxication.

Appellant

exhibited

all

six

signs

of

intoxication that are revealed through that test. The
officer then arrested Appellant and sought a search
warrant for extraction of his blood, which was granted. But
the search warrant did not explicitly authorize the
chemical testing of Appellant’s blood. Chemical testing of
the blood sample was nevertheless conducted, and it

revealed an alcohol-concentration level of .19.
Appellant did not contest the validity of the search
warrant insofar as it authorized the extraction of his blood.

See Crider v. State, No. 04-18-00856-CR, 2019 WL
4178633, at *1 (Tex. App.―San Antonio Sept. 4, 2019)
(mem. op., not designate for publication) (“Crider does not
challenge the existence of probable cause to support the
blood draw warrant.”). He did challenge, in a motion to
suppress evidence, however, the introduction of evidence
of the results of chemical testing for his blood-alcohol
concentration. The trial court denied his motion to
suppress, and on appeal Appellant argued that the
introduction of his blood-alcohol concentration test result
was error under this Court’s recent opinion in State v.

Martinez, 570 S.W.3d 278 (Tex. Crim. App. 2019).

In Martinez, this Court recently reiterated what it
had held in previous opinions: that the chemical testing of
blood constitutes a separate and discrete invasion of
privacy for Fourth Amendment purposes from the physical
extraction of that blood. Id. at 290; see also State v. Huse,
491 S.W.3d 833, 840 (Tex. Crim. App. 2016) (“[W]hen the
State itself extracts blood from a DWI suspect, and when
it is the State that conducts the subsequent blood alcohol
analysis, two discrete ‘searches’ have occurred for Fourth
Amendment purposes.”); State v. Hardy, 963 S.W.2d 516,
523 (Tex. Crim. App. 1997) (“Where the drawing of blood
is instigated by the government, a subsequent analysis of
the blood by government agents also constitutes an
invasion of a societally recognized expectation of privacy.”)
(citing Skinner v. Ry. Labor Exec.’s Ass’n., 489 U.S. 602,
616 (1989)).
Appellant argued that this necessarily means that
he may insist that, before that chemical testing may occur,

the State must obtain a warrant expressly authorizing that
test, or else identify an exception to the Fourth
Amendment’s ordinary preferences for search warrants.

Crider, 2019 WL 4178633, at *2. While acknowledging our
holding that blood testing involves a discrete invasion of
privacy under the Fourth Amendment, the San Antonio
court of appeals held that this did not require a separate
and express authorization of chemical testing in a search
warrant that already authorizes extraction of blood for
that purpose. See id. (“[W]e reasonably can assume that
where the police seek and obtain a blood draw warrant in
search of evidence of intoxication, the blood drawn
pursuant to the warrant will be tested and analyzed for
that purpose.”).
Other courts of appeals in Texas have reached
similar conclusions. See Hyland v. State, 595 S.W.3d 256,
261 (Tex. App.―Corpus Christi‒Edinburg 2019, no. pet.)
(op. on remand) (“[U]nlike in Martinez, the search here

was not warrantless.”); State v. Staton,

S.W.3d _, 2020

WL 1503125, at *3 (Tex. App.―Dallas Mar. 3, 2020, no pet.
h.) (“[C]ommon sense dictates that blood drawn for a
specific purpose will be analyzed for that purpose and no
other.”) (quoting Martinez, 570 S.W.3d at 290); Jacobson

v. State,
App.―Fort

S.W.3d , 2020 WL 1949622, at *5 (Tex.
Worth

Apr.

23,

2020)

(“[T]he

Fourth

Amendment does not require the State to obtain a second
warrant to test a blood sample that was seized based on
probable cause that a person was driving while
intoxicated.”). And we do too.

II.

Analysis
“[T]he

ultimate

touchstone

of

the

Fourth

Amendment is reasonableness.” Riley v. California, 573
U.S. 373, 381‒82 (2014) (quoting Brigham City v. Stuart,
547 U.S. 398, 403 (2006)). A neutral magistrate who has
approved a search warrant for the extraction of a blood
sample, based upon a showing of probable cause to believe

that a suspect has committed the offense of driving while
intoxicated, has necessarily also made a finding of
probable cause that justifies chemical testing of that same
blood. Indeed, that is the purpose of the blood extraction.
This means that the constitutional objective of the warrant
requirement has been met: the interposition of a neutral
magistrate’s judgment between the police and the citizen
to justify an intrusion by the State upon the citizen’s
legitimate expectation of privacy. See State v. Villarreal,
475 S.W.3d 784, 795‒96 (Tex. Crim. App. 2014) (op. on orig.
subm.) (citing Johnson v. United States, 333 U.S. 10, 13‒
14 (1948), for the proposition that the purpose of the
Fourth Amendment’s warrant requirement is to provide a
neutral arbiter between the police and citizens to
determine whether probable cause exists to justify a police
intrusion). Whether we say the warrant that justifies
extraction of the blood also, by necessary implication,
justifies chemical testing,1 or we simply acknowledge that

a magistrate’s finding of probable cause to extract the
blood for chemical testing necessarily constitutes a finding
of probable cause also to conduct the chemical test for
intoxicants, is of no moment. However we choose to
characterize it, the chemical testing of the blood, based
upon a warrant that justifies the extraction of blood for
that very purpose, is a reasonable search for Fourth
Amendment purposes.
As all the courts of appeals to have addressed the
question so far have discerned, the facts of Martinez are
distinguishable. See Crider, 2019 WL 4178633, at *6;

Hyland, 595 S.W.3d at 260‒61; Staton, 2020 WL 1503125,
at *2‒3; Jacobson, 2020 WL 1949622, at *5. There, it was
not the State that extracted the blood in the first instance.
Instead, the State obtained the already-extracted blood
sample

from

a

treating

hospital

and,

without

a

magistrate’s finding of probable cause, had that blood
sample tested for intoxicants. Martinez, 570 S.W.3d at

281. Having previously acknowledged that a chemical test
conducted at the behest of the State constitutes a discrete
and separate invasion of a legitimate expectation of
privacy,

we

held

that

the

warrantless

test

was

unconstitutional. Id. at 292.

1 See Faulkner v. State, 537 S.W.2d 742, 744 (Tex.
Crim. App. 1976) (“[I]n interpreting affidavits and search
warrants, magistrates and courts must do so in a common
sense and realistic fashion and avoid hypertechnical
analysis.”) (emphasis added); Long v. State, 132 S.W.3d
443, 448 (Tex. Crim. App. 2004) (“[W]hen courts examine
the description of the place to be searched to determine the
warrant’s scope, they follow a common sense and practical
approach, not a ‘Procrustean’ or overly technical one.”); see
also State v. Martines, 355 P.3d 1111, 1115 (Wa. 2015) (“A
warrant authorizing a blood draw necessarily authorizes
blood testing, consistent with and confined to the finding
of probable cause.”); State v. Frescoln, 911 N.W.2d 450,
456 (Iowa Ct. App. 2017) (“Although the warrant does not
explicitly state that the blood sample would be subject to
chemical testing, the stated reason for obtaining the blood
sample was its relevance to an [Operating While
Intoxicated] investigation. The best practice is to state the
purpose for requesting the sample in the warrant.
However, a commonsense reading of the warrant implies
the blood sample would be subjected to chemical testing.”).

Here, the State obtained the blood sample by way of
a magistrate’s determination that probable cause existed
to

justify its seizure―for

the

explicit

purpose

of

determining its evidentiary value to prove the offense of
driving

while

intoxicated.

That

magistrate’s

determination was sufficient in this case to justify the
chemical testing of the blood. And this is so, we hold, even
if the warrant itself did not expressly authorize the
chemical testing on its face.
This holding is not tantamount, as Appellant fears,
to an unconstitutional endorsement of “general” search
warrants.

The

Fourth

Amendment

prohibits

the

enforcement of warrants that are so lacking in specificity
that the police may seemingly engage in “general,
exploratory

rummaging

in

a

person’s

belongings.”

Walthall v. State, 594 S.W.2d 74, 78 (Tex. Crim. App.
1980) (citing Andresen v. Maryland, 427 U.S. 463,
480 (1976), quoting Coolidge v. New Hampshire, 403 U.S.

443, 467 (1971)). But no indiscriminate “rummaging”
through the content of Appellant’s blood was authorized
here; nor does the record suggest that any occurred. On the
basis of the warrant issued in this case, the State was not
authorized to analyze Appellant’s blood for, say, genetic
information,2 or for any other biological information not
supported by the same probable cause that justified the
extraction of his blood sample in the first place.
In his motion to suppress, Appellant sought only to
exclude the evidence of his blood-alcohol concentration.
Extraction of his blood for the purpose of testing his blood
for this specific information was justified by the strong
odor of alcohol the officer noticed

2 See Birchfield v. North Dakota, 136 S. Ct. 2160,
2178 (2016) (“[A] blood test . . . places in the hands of law
enforcement authorities a sample that can be preserved
and from which it is possible to extract information beyond
a simple BAC reading.”).

when he first confronted Appellant and found him to
exhibit characteristics of intoxication―a fact confirmed by
the neutral magistrate in the warrant. The State does not
contend that it should have been able to analyze the blood
for any other purpose on authority of the warrant in this
case. On the facts of this case, Appellant’s concern about
the lack of specificity in the warrant is unfounded.
We affirm the judgment of the court of appeals.

DELIVERED:
PUBLISHED

September 16, 2020

